                         OFFICE OF INSPECTOR GENERAL
                       CORPORATION FOR NATIONAL AND
                            COMMUNITY SERVICE




                             OIG Letter Report Regarding
                       Assessment of Project Risks Related to the
                   Corporation for National and Community Service's
                     Development of a Grants Management System

                            OIG Audit Report Number 02-22
                                  February 4,2002




                                         Prepared by:

                                         KPMG LLP
                                     2001 M Street, N.W.
                                    Washington, D.C. 20036

                    Under the Corporation for National and Community Service
                                 Purchase Order # 200107180002
                                  GS Contract # GS-23F-8127H
                                       Task Order # 00-01




This report was issued to Corporation management on March 29,2002. Under the laws and
regulations governing audit follow up, the Corporation is to make final management
decisions on the report's findings and recommendations no later than September 30, 2002,
and complete its corrective actions by March 29, 2003. Consequently, the reported findings
do not necessarily represent the final resolution of the issues presented.
                Letter Report Regarding Assessment of Project Risks Related
                 to the Corporation for National and Community Service's
                       Development of a Grants Management System


OIG engaged KPMG LLP to prepare a project risk management assessment of the Corporation's
contractual initiative to develop an integrated grants management system (known as E-SPAN)
capable of providing comprehensive financial information for all grants and cooperative
agreements. This independent risk assessment of the project's management practices employed a
five-part methodology that considered: (1) assessing the inherent risks; (2) understanding the
controls in place; (3) assessing the effectiveness of the controls; (4) identifying control
weaknesses; and (5) deducing and reporting residual risk. OIG has reviewed KPMG's assessment
methodology, findings and recommendations and concurs with them.

The assessment concluded that the Corporation has adequately managed the E-SPAN project and
found that the current level of residual risk is low except in a few medium risk areas. The analysis
identified three areas that require additional management attention and makes the following
recommendations:

        (1) The Corporation should develop or adopt a specific quality assurance and testing
methodology for the new E-SPAN system that is consistent with applicable standards and
accepted best practices. It should also develop performance criteria and guidelines that specify
how a third-party provider of quality assurance and testing services will be required to carry out its
activities, document its observations, and communicate its recommendations.

        (2) The Corporation should document criteria for testing specific application security and
internal controls to be used for both initial and on-going quality assurance and validation testing of
E-SPAN.

       (3) The Corporation should develop a system life cycle management strategy and plan for
operation and maintenance of the E-SPAN system throughout its expected operational lifespan
while personnel with detailed knowledge of the system design are still available.

OIG understands that the Corporation plans to complete the development of E-SPAN and achieve
initial operational capability of the system in April 2002. As required by the Conference Report
on the Corporation's appropriations for Fiscal Year 2001 under the National Community
Volunteer Act, OIG will participate in the certification of the new grants management system after
E-SPAN'S development and testing are completed.
                                  Office of Inspector General
                        Corporation for National and Community Service

  Assessment of Project Risks Related to the Corporation for National and Community
               Service's Development of a Grants Management System

                                             Table of Contents




APPENDIX A - OUR UNDERSTANDING OF THE GRANTS MANAGEMENT
    PROCESS CXJRRENT STATE ................................................................................. A- 1

APPENDIX B - OUR UNDERSTANDING OF THE GRANTS MANAGEMENT
    fmsTEM DEVELOPMENT PROJECT ..................................................................B- 1

APPENDIX C - ASSESSMENT SUMMARY FOR THE GRANTS MANAGEMENT
    SYSTEM DEVELOPMENT PROJECT ................................................................... C- 1

APPENDIX D - RESPONSE FROM THE CORPORATION FOR NATIONAL
    AND C O ~ M U N I T YSERVICE ............................................................................... D- 1
             2001 M Street, NW                                             Telephone 202 533 3000
             Washington. DC 20036                                          Fax 202 533 8500




February 4, 2002

Inspector General
Corporation for National and Community Service
Washington, DC 20525

At your request, KPMG LLP (KPMG) performed an assessment of project management
risks associated with the Corporation's initiative to develop a new grants management
system, E-SPAN. This assessment is a precursor to the ultimate certification of the
system that must be performed in accordance with the conference report on Public Law
106-377. (The conference report requires the Corporation to certify, with the Inspector
General's concurrence, that an adequate cost accounting and grants management system
has been acquired and implemented, and that it conforms to all federal requirements.)
This project risk assessment focused on understanding risks that would interfere with the
Corporation's ability to complete the acquisition and implementation of a new grants
management system, and. consequently, the ability to certify a new system, as required
by the Congress.

In July 2000 the Corporation engaged STR LLC, a professional services company, to
assist the Corporation in designing a grants management system. In .January 2001 the
Corporation again contracted with STR to develop and implement the new grants
management software. The Corporation's Chief Information Officer (CIO), in a
memorandum dated February 2, 2001, requested input on the design of the grants
management system from the Office of Inspector General (OIG). OIG subsequently
engaged KPMG to conduct an independent assessment of the project's risks.

This assessment focused on understanding inherent project risks, the effectiveness of
controls, and the existence of risks that had a significant effect on past performance and
will influence successful development and implementation of the new system, E-SPAN.

Results in Brief

KPMG reviewed documentation provided by the Corporation and met with Corporation
management and STR personnel. KPMG feels that overall the E-SPAN project is
adequately managed, and residual risk is currently low, except in a few medium risk
areas. The areas that need heightened attention are all related to future stages in system
development and implementation. They are associated with software integration testing,
quality assurance practices and life cycle planning for the E-SPAN system:




1111           aKPMG
                 mmiber
                     LLP at KPMG
                         KPMG  LLP a U S lhmtted
                                 Inleinalonal. a Swlsi    partnership, s
                                                  a b t yassocatlon
Office of Inspector General
Corporation for National Service
Page 2

   The Corporation does not have a specific methodology nor documented performance
   criteria for quality assurance and validation testing. It is recommended that the
   Corporation develop or adopt a specific quality assurance and testing methodology
   for the new E-SPAN system that is consistent with applicable standards and accepted
   best practices. It is also recommended that performance criteria and guidelines be
   developed that specify how a third-party provider of quality assurance and testing
   services will be required to carry out its activities, document its observations and
   communicate its recommendations.
   The Corporation has not documented criteria for testing and re-testing specific data
   integrity controls and application security controls to be used during the phased
   implementation of the new E-SPAN system and also at later points in the system's
   life cycle. It is recommended that the Corporation document criteria for testing
   specific application security and internal controls to be used for both initial and on-
   going quality assurance and validation testing of E-SPAN.
   The Corporation has not documented a system life cycle maintenance and operation
   plan for E-SPAN beyond the initial three months of system operation. It is
   recommended that the Corporation develop a system life cycle management strategy
   and plan for operation and maintena~ceof the E-SPAN system throughout its
   expected operational lifespan while personnel with detailed knowledge of the system
   design are still available.

Project Scope, Objectives, and Methodology

Scope: KPMG assessed the project management processes and risks associated with the
Corporation's initiative to develop and implement a new grants management system, E-
SPAN. E-SPAN is being developed by a contractor, STR LLC, under the supervision of
Corporation management, and with the involvement of Corporation personnel.

This assessment was a precursor to the ultimate certification of the system that must be
performed in accordance with the conference report on Public Law 106-377. The
conference report requires the Corporation to certify, with the Inspector General's
concurrence, that an adequate cost accounting and grants management system has been
acquired and implemented, and that it conforms to all federal requirements.

Objective: The objective of the assessment was to identify and assess project
management risk in the following areas:

1 . Project management control processes, techniques and methodologies;
2. The inherent risks that could adversely impact the successful completion of the new
    grants management system; and
3. The Corporation's actions to mitigate those risks.
Office of Inspector General
Corporation for National Service
Page 3


Methodology: The assessment relied on KPMG's standard methodology for conducting
project risk assessments. KPMG's methodology is based on and compatible with various
widely accepted standards, such as Control Objectives for Information and Related
Technology (COBIT), the Project Management Institute's Project Management Body of
Knowledge, the Software Engineering Institute's capability maturity models, and
appropriate National Institute of Standards and Technology (NIST) standards.

To conduct the assessment, KPMG gained an understanding of the current grants
management environment and the E-SPAN project in the following areas: background
information, project management, business processes, people and skills, and technology
and data.     Thirteen management control areas, sometimes referred to as project
management domains, were reviewed. KPMG employed a five-part project risk
assessment methodology. Its steps included: (1) assessing the inherent risk; (2)
understanding the controls in place; (3) assessing the effectiveness of the controls; (4)
identifying control weaknesses; and (5) deducing and reporting residual risk back to the
Corporation. Details about each activity are presented below:

   Assessing the inherent risk associated with the E-SPAN project entailed evaluating
   risks that existed prior to the implementation of controls. The assessment of inherent
   risk relied on the project kickoff meeting, initial discussions with Corporation
   management, preliminary reviews of documentation, and knowledge gained from
   previously delivering services to the Corporation.
   Understanding controls in place entailed determining how the Corporation and STR,
   its contractor, control the direction and progress of the E-SPAN project.
   Understanding controls focused on domains that are commonly understood to be part
   of disciplined project management infrastructure and will have an impact on how well
   scope, time, requirements, configuration, and quality are controlled.
   Assessing the effectiveness of controls included reviewing the extent to which project
   management activities succeed at delivering results to the satisfaction of Corporation
   management.
   Identifying control weaknesses involved observing where project management
   practices showed a gap, and the gap could have significant potential for negatively
   impacting the success of the development and implementation of the new grants
   management system.
   Deducing and reporting residual risk back to the Corporation involved consolidating
   the understanding of controls and control weaknesses into a set of overall
   observations and recommendations. A risk rating of high, medium, or low was
   assigned to each pair of observations and recommendations to indicate the level of
   residual risk. In this rating scheme, high-risk issues, of which there were none,
   require immediate action; medium-risk issues deserve heightened management
Office of Inspector General
Corporation for National Service
Page 4

   attention; and low-risk issues can be dealt with through standard operating
   procedures.

Summary of Findings and Recommendations

The assessment resulted in three medium risk findings that are discussed below. These
findings are also included in Appendix C, a summary of all observations and
recommendations.

   Finding 1: Quality Assurance and Testing. The Corporation has worked closely
   with its contractor, STR LLC, to perform ongoing testing of E-SPAN during the
   system's development. In addition, Corporation management has stated they plan to
   contract with a third party to perform independent testing and quality assurance for E-
   SPAN. The Corporation has prepared a request for quotation (RFQ) for these
   services that includes high-level requirements. But, the Corporation does not have a
   specific methodology nor documented performance criteria for quality assurance and
   validation testing.

   The SEI capability maturity model for software engineering and COBIT specifically
   address the value of having general and specific guidelines for quality assurance and
   testing. COBIT detailed control objective PO1 1.2, for example, states: Management
   should establish a standard approach regarding quality assurance that covers both
   general and specific quality assurance activities." Furthermore, detailed control
   objective PO1 1.18 indicates management "should define and use metrics to measure
   the results of activities, thus assessing whether quality goals have been achieved."

   KPMG did not observe the existence of consolidated documentation that meets these
   standards and believes that lack of a specific quality assurance and testing
   methodology could lead to a higher likelihood of testing not detecting all potential
   problems, and also, of not being efficiently repeatable in the future.

   It is recommended that the Corporation develop or adopt a specific quality assurance
   and testing methodology for the new E-SPAN system that is consistent with
   applicable standards and accepted best practices, such as those established by CMM
   and COBIT. It is also recommended that performance criteria and guidelines be
   developed that specify how a third-party provider of quality assurance and testing
   services will be required to carry out its activities, document its observations and
   communicate its recommendations.
Office of Inspector General
Corporation for National Service
Page 5

       Finding 2: Testing Plan for E-SPAN Application Security and Internal
       Controls. The Corporation has addressed the security of E-SPAN in its system
       development process, but has not documented criteria for testing and re-testing
       specific data integrity controls and application security controls during the phased
       implementation of the new E-SPAN system and also at later points in the
       system's life cycle.

       Standards that espouse the value of well-planned and documented testing of
       application security and controls include NIST Special Publication 800-27,
       Engineering Principles for Information Technology Security ( A Baseline for
       Achieving Security) (NIST 800-27) and COBIT. NIST 800-27 (principle 13) calls
       for providing assurance that a system is, and continues to be, resilient in the face
       of expected threats. COBIT detailed control objective M2.2, which says:
       "Operational security and internal control assurance should be established and
       periodically repeated, with self-assessment of independent audit to examine
       whether or not the security and internal controls are operating according to the
       stated or implied security and internal control requirements."              This is
       complemented by detailed control objective A15.10 (part of the high-level
       objective, AI5, covering installation and accreditation of systems) states,
       "Management should define and implement procedures to ensure that operations
       and user management formally accept the test results and the level of security for
       the systems, along with the residual risk."

       Because the implementation of E-SPAN is expected to extend in stages over
       approximately a year and a half, the ability to repeat key quality assurance testing
       steps when new software modules are integrated with operational ones will be
       essential. Lack of a clear, documented plan and criteria for testing specific E-
       SPAN application security and internal controls could lead to failure to detect
       control weaknesses.

       It is recommended that the Corporation document criteria for testing specific
       application security and internal controls to be used for both initial and on-going
       quality assurance and validation testing of E-SPAN. The criteria should
       encompass security and internal controls for the new grants management
       application, and other interfacing applications, such as Momentum.

       Finding 3: E-SPAN Lifecycle Management and Support Planning. An option
       in the Corporation's contract with STR provides for three months of operational
       support for E-SPAN. The Corporation has not documented a system life cycle
       maintenance and operation plan for E-SPAN beyond that initial three months of
       system operation.
Office of Inspector General
Corporation for National Service
Page 6

       OMB Circular A- 130, Management of Federal Information Resources, requires
       government agencies to have an information system life cycle plan.         Also,
       COBIT detailed control objective DS13.1 states, "IT management should
       establish and document standard procedures for IT operations (including network
       operations). All IT solutions.and platforms in place should be operated using
       these procedures, which should be reviewed periodically to ensure effectiveness
       and adherence."

       Not having a plan for maintaining the software, controlling modifications and
       providing a controlled operational environment for the application could have a
       negative effect on the efficient, effective management of E-SPAN.

       It is recommended that the Corporation develop a system life cycle management
       strategy and plan for operation and maintenance of the E-SPAN system
       throughout its expected operational lifespan while personnel with detailed
       knowledge of the system design are still available. The Corporation should
       ensure the plan is consistent with applicable life cycle management guidance in
       OMB Circular A- 130.

Appendix A discusses the current grants management processing environment.
Appendix B provides an overview of the E-SPAN system development project.
Appendix C presents the assessment observations and recommendations.

We conducted our audit in accordance auditing standards generally accepted in the
United States of America and the standards applicable to performance audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.

Distribution

We provided a draft of this report to the Corporation. The Corporation's response to our
report is included as Appendix D.

As required by the Government Corporation Control Act, this report is intended solely for
the information and use of the United States Congress, the President, the Director of the
Office of Management and Budget, the Comptroller General of the United States, the
Corporation for National and Community Service and its Inspector General, and is not
intended to be and should not be used by anyone other than these specified parties.
Appendix A
                                                                           Appendix A



           Our Understanding of Current Grants Management Processes

This appendix provides an illustrative, high-level view of the Corporation's processes for
the review and approval of grant applications, and the systems that are currently used by
the Corporation in the grants administration process.

AmeriCorps, Learn and Serve, and State and Local Commissions Grants

The processing of a grant application begins when a new application from a state/local
office arrives at the Program and Planning Integration (PPI) Office. This office
distributes the applications to the appropriate Program and Grants Offices. In the Grants
office, personnel manually assign each grant application a 10-digit grant number, and
enter the grant application information into the Grantsbase system. Grantsbase is a small
system used in the grants review process to generate grant documents and modifications,
and track financial reporting for authorized National and Community Service Act
programs.

The application itself is put through the Grant Application Review Process (GARP).
The Program and Grant offices develop a report and recommendation for the Board of
Directors. One of the criteria for a recommendation of approval is that the grant be
within previously established budget limitations. When approved by the Board of
Directors, the grant application goes back to the Program and Grants offices for
negotiation with the grantee. The Program office then creates a Certification for Funding
that requires the signatures of the Program Officer and Director. When signed, the
Certification is sent to the Grants office. After the signed Certification of Funding comes
back from Accounting, the Certifying Officer requests that a grant account be created and
an obligation established in Momentum. A grants specialist manually enters the
obligation in Momentum. Momentum subsequently connects to the HHS Payment
Management System (PMS) to establish a grant authorization. The Grantee is able to
draw grant funds within the authorized limits directly from HHS.

The current grants management processes intersperse manual and automated processing.
The approval and authorization process requires forms to be downloaded, signed, and
forwarded to the respective offices. There is an electronic interface between Momentum
and HHS-PMS, but there is no electronic interface between Grantsbase and Momentum.
Information about the initial grant also flows from Grantsbase to both the Web-Based
Reporting System (WBRS), and the System for Programs, Agreements and National
Service Participants (SPAN). The Grantsbase information aids in setting up the initial
grant information for progress reporting in WBRS and for related trust accounts in
SPAN. But, updated information on subsequent modifications to the grant is entered
manually into these systems, and does not flow from Grantsbase.




                                         Page A- 1
                                                                                                  Appendix A




*
                                    Grants Manaaement Process
                  (For Amerrcorps, Learn a n d Serve, a n d State a n d L o c a l Commissions Grants)




 w  Apphcation                               C e r t ~ f ~ c a for
                                                Fundmg
                                                               te
                                                                            Grant
                                                                         Approved on
                                                                         Paper, Setup
                                                                        In M o m e n t u m
                                                                         and Entered
                                                                                                        Fmanclal
                                                                                                        System




                                                                      .1.
     Plannin                                                             G rantsbase




  Perform G A R P
(Grant A p p l ~ c a t ~ o n                 Negotiate w ~ t h
 R e v ~ e wProcess)                                                     Grant Award




                               Application
                                 Report
                                                                            Grant                    Grant
                                                                         Inform ation             lnformation




    Application




             Figure A l : Current NCSA Grants Management Process Illustration




                                                         Page A-2
                                                                              Appendix A



Senior Corps Program Grants

The processing of a grant application begins when a grantee submits a grant request to
the CNS State Office. The grantee is often the State Commission which itself has
multiple sub-grantees. The State Office Director, who has programmatic responsibility
for the grant request, reviews the request, and signs giving his approval. It is then
forwarded to the regional CNS Service Center.

The Service Center has financial management responsibility for the grant request. The
Service Center has previously been given a budget for these types of grants by CNS
headquarters. The Service Center Budget Officer verifies and signs off that funds are
available. The Service Center Director then gives his approval by signing the request.

The request is then goes to one of several Service Center grants clerks, each of which
works with multiple state offices. The actual document for the grant request is a
Procurement Request form, because that is how the accounting system, Momentum,
processes it. Coding information in certain fields differentiates a grant from
Procurement Requests for supplies and services.

The grants clerk enters the grant request information to Momentum as a commitment.
This signifies that that there has been "Grant Award Approval". The grants clerk then
enters an obligation into Momentum. It creates a "Notice of Grant Award", and begins
an automated process that transmits information to the HHS Payment Management
System authorizing HHS to make payments to the grantee without further approvals by
CNS. The Notice of Award document is printed by the system, and signed by the grants
clerk.

The grants clerk next enters the grant request information into "Grants Module". Grants
Module contains the standard Terms and Conditions that are used for all SCP grants. The
Terms and Conditions are printed out to accompany the Notice of Grants Award.

The standard cover letter for the Notice of Grant Award is provided by headquarters as an
MS Word document. It is printed out and placed together with the Notice of Award and
the Terms and Conditions in a folder. Two copies of this set of documents are sent to the
grantee. One set is sent to the State Office, and one set is retained in Service Center files.

Draw downs against the grant are monitored by using the Momentum Grant Status
Report. The draw downs are considered to be an advance until the Grantee submits a
Financial Status Report (FSR) explaining the actual use of the funds. Once an FSR or
electronic equivalent are received, the funds previously advanced become an expenditure.




                                           Page A-3
                                                                                                Appendix A




                                 Grants Manaaement Process




                             4           G r a E e r k
                                                                                         MOMENTUM



                         1I II
                                        Commitment


I/   s t a t e Office
         Director
     Review and
                                    1     (Grant
                                         Approval)


        Approval
                                    7
                                    'l

                                         C N S Service
                                            Center
                                         Grants Clerk
                                            Enters
                                          Obligation
         Budget
                                          (Noitice of
     Officer F u n d s
                                            Grants
      Availability
                                            Award)                                                    Grantee
                                                                                                      Payment
                                                                                                      Requests

                                                               1   N o t i c e of G
                                                                           Award




                                                             1
       Director
       Approval                          G r a n t s Clerk
                                         Enters Grant                                        Module
                                         Inform ation




                                                                      C o v e r Letter




     Figure A2: Current DVSA Grants Management Process Illustration




                                                    Page A-4
Appendix B
                                                                          Appendix B




    Our Understanding of the Grants Management System Development Project

Multiple pieces of legislation, enacted at different times, have established a variety of
programs with different requirements, and different methods for administration. For this
and other historical reasons, the Corporation has evolved a variety of processes and
systems to manage its grants programs (i.e., AmeriCorps, VISTA, Learn ands Service
America, and the National Senior Service Corps). The systems that have evolved to
support the programs have different procedures and data file structures, and are not well
documented. They require manual intervention, manual controls and redundant manual
data entry. Inefficiencies and shortcomings, such as these, led the Corporation, with
Congressional approval, to initiate the project to develop a new, integrated grants
management system, E-SPAN.

E-SPAN will integrate the various formerly distinct systems and processes, and interface
with Momentum. It will be a Web-based system developed using Oracle and Case tools
that work with the Oracle8i software.

In July 2000, the Corporation selected STR to design E-SPAN. In January 2001, STR
was also selected to develop and implement E-SPAN, with a "go live" date estimated to
be approximately April 2002. A partial list of the tasks STR has performed or will
perform for development and implementation of E-SPAN includes: conducting a detailed
design review, developing forms and reports, mapping databases, conducting incremental
testing, installing databases, conducting a complete system test with Corporation staff,
developing training materials, training Corporation help desk and field staff, and
developing a user's manual.

Although STR has the responsibility for system development and implementation, the
Corporation plans to also contract with an independent third party for testing services.
These services will provide the Corporation independent quality assurance and testing of
E-SPAN.




                                        Page B-1
Appendix C
                                                                                                                 Appendix C



                                        Assessment Summary for the E-SPAN Project

The table below presents observations, recommendations, and a risk rating for each control area in the assessment.



  Proiect Control Area
 Project Sponsorship     As one of the largest software              There are no recommendations for     Low        NIA
                         development undertakings in the             this control area.
                         Corporation's history, the E-SPAN
                         project has sponsorship from senior
                         management and congressional funding.
Steering Committee       Corporation senior management               There are no recommendations for     Low        NIA
Leadership               provides active oversight of the project,   this control area.
                         for example by participating in weekly
                         status meetings. Through these
                         meetings, as well as close involvement
                         in the development effort, key managers
                         stay abreast of new issues, outstanding
                         issues, and project status.
Stakeholder              Program groups with a stake in the          There are no recommendations for     Low        NIA
Involvement              functionality that E-SPAN will deliver      this control area.
                         are represented in the design,
                         development and implementation
                         process. In addition, the Corporation
                         has carried presentations about E-SPAN
                         functionality to groups that will use the
                         new system.




                                                               Page C-l
                                                                                                            Appendix C




Project Management   A project management           structure   The Corporation should prepare        Low       N/ A
Office               specific to E-SPAN is documented in        guidelines for how the third party
                     the STR RFQ response. It includes          provider of quality assurance and
                     procedures for having a project plan7      testing services will document
                     staffing plan, budget, and project         application development and
                     schedule. The Corporation and STR          implementation issues and will work
                     work closely together to carry out         wiih the Corporation and STR to
                     project management office duties, but a    resolve any observed defects in the
                     project management office similar to       new grants management system.
                     what might be part of a larger-scale
                     application development and
                     implementation effort has not been
                     formally defined. STR uses various
                     project management tools, including a
                     finance and account system audited by
                     DCAA.
                     Introduction of an independent third-
                     party test services provider into the E-
                     SPAN project will introduce one
                     challenge normally handled by a formal
                     project management office,
                     coordinating multiple vendors.
                     Specifically, the Corporation has not
                     documented a plan for coordinating
                     collaboration between its stakeholders,
                     STR, and a third party provider of
                     quality assurance and testing services,
                     in the context of identifying,
                     documenting, and resolving any defects
                     in the new grants management system
                     that may be observed.

                                                          Page C-2
                                                                                                                      Appendix C




Project Team             Corporation staff who are involved with      The Corporation should identify skill     Low        NlA
Composition and Skills   the E-SPAN project appear to be senior       sets that will be required of both
                         professionals with an understanding of       contractor personnel who will
                         their functional areas. STR's personnel      perform testing of E-SPAN and
                         seem to possess sufficient technical         Corporation staff who will oversee
                         qualifications, adequate experience, and     this effort. The Corporation should
                         a track record on complex projects.          ensure technical staff who will
                                                                      participate in testing possess adequate
                         In discussions concerning the rationale      skills or receive training in key areas
                         for employing an independent third           prior to the commencement of testing
                         party to test E-SPAN, one reason             activities.
                         offered concerned Corporation staff
                         lacking the requisite complement of
                         skill sets to carry out the effort as an
                         internal project.
Status Reporting         STR and the Corporation meet every           There are no recommendations for          Low        NIA
                         week to discuss the status of the project.   this control area.
                         STR provides monthly status reports to
                         the Corporation. A report identifies
                         work planned for the next month and
                         any problems, changes, risks, or
                         requirements that may require the
                         Corporation's attention.
                         Documentation of status briefings and
                         reports consistently track progress and
                         the history of issues.




                                                                Page C-3
                                                                                                       Appendix C




Issues Management   Issues are logged, discussed, and         There are no recommendations for   Low       N/A
                    resolved during the project and through   this control area.
                    weekly status meetings. Meeting
                    summaries serve as a log of issues
                    consideration and resolution.
Configuration       STR keeps code in an Oracle Designer      There are no recommendations for   Low       N/A
Management          Repository and takes steps to reuse code this control area.
                    where possible. Adequate steps to
                    maintain configuration information are
                    being taken. The information tracked
                    includes the purpose of the code, the
                    location, the description and the author.




                                                         Page C-4
                                                                                                                           Appendix C




  Proiect Control Area                 Observations                             Recommendations                  Risk Rating    Finding
~              ~ andl
       ~A~~~~~~~~        Thei Corporation
                                   ~       ~has worked closely       It is recommended that the                   Medium       F i n d i n ~1
Testing                  with its contractor, STR LLC, to            Corporation develop or adopt a
                         perform ongoing testing of E-SPAN           specific quality assurance and testing
                         during the system's development.            methodology for the new E-SPAN
                         Testing requirements are built into         system that is consistent with
                         STR's responsibilities, and the stepwise    applicable standards and accepted
                         development approach being taken for        best practices, such as those
                         E-SPAN incorporates incremental             established by CMM and COBIT. It
                         testing and other testing efforts. In       is also recommended that
                         addition, Corporation management has        performance criteria and guidelines be
                         stated they plan to contract with a third   developed that specify how a third-
                         party to perform independent testing        party provider of quality assurance
                         and quality assurance for E-SPAN. The       and testing services will be required
                         Corporation has prepared a request for      to carry out its activities, document its
                         quotation (RFQ) for these services that     observations and communicate its
                         contains high-level requirements. But,      recommendations.
                         the Corporation does not have a specific
                         methodology nor documented
                         performance criteria for quality
                         assurance and validation testing.




                                                               Page C-5
EIdd                                                                                                                  Appendix C




 Proiect Control Area                Observations                            Recommendations
Application Security    Application security and internal         Because the implementation of E-           Medium      Finding 2
and Internal Controls   controls have been considered during E- SPAN is expected to extend in stages
                        SPAN development and have been a          over approximately a year and a half,
                        topic of importance in the effort. STR    the ability to repeat key quality
                        has made concrete recommendations for     assurance   testing steps when new
                        strengthening access control, and         software  modules    are integrated with
                        Corporation managers describe             operational ones will be essential. It
                        application security and internal control is recommended that the Corporation
                        as areas of continuing focus. However, document criteria for testing specific
                        the Corporation has not documented        application security and internal
                        criteria for testing and re-testing       controls to be used for both initial and
                        specific data integrity controls and      on-going quality assurance and
                        application security controls to be used  validation testing of E-SPAN.
                        during the phased implementation of the
                        new E-SPAN system and also at later       The criteria should encompass
                        points in the system's life cycle.        security and internal controls for the
                                                                  new grants management application,
                                                                  and other interfacing applications,
                                                                  such as Momentum.




                                                             Page C-6
                                                                                                             Appendix C




Knowledge Transfer   STR will develop user manuals and       The Corporation should work closely       Low       NIA
                     other necessary documentation by the    with STR, as manuals are developed,
                     completion of the project.              to determine that documentation will
                                                             satisfy the needs of end users. To this
                                                             end, business groups should provide
                                                             input during the development of
                                                             manuals.

                                                             Along with other "as built"
                                                             documentation, an "as built" design
                                                             document should be prepared by the
                                                             contractor before the system is
                                                             accepted. The "as built" design
                                                             document should clearly show all
                                                             system controls that ensure the
                                                             security, privacy, and integrity of the
                                                             data in the system (accuracy,
                                                             completeness, timeliness, etc.).




                                                        Page C-7
                                                                                                                       Appendix C




Lifecycle Maintenance   An option in the Corporation's contract     It is recommended that the                Medium      Finding 3
                        with STR provides for three months of       Corporation develop a system life
                        operational support for E-SPAN. The         cycle management strategy and plan
                        STR support will include training on an     for operation and maintenance of the
                        as-needed basis, technical fixes,           E-SPAN system throughout its
                        database changes, and documentation         expected operational lifespan while
                        updates. The Corporation has not            personnel with detailed knowledge of
                        documented a system life cycle              the system design are still available.
                        maintenance and operation plan for E-       The Corporation should ensure the
                        SPAN beyond the initial three months        plan is consistent with applicable life
                        of system operation.                        cycle management guidance in OMB
                                                                    Circular A-1 30.
Training                STR will provide training to                The Corporation should leverage            Low          N/A
                        Corporation staff, and also work with       training and training materials
                        key stakeholders in a "train the trainer"   provided by STR into knowledge
                        capacity at key points during the           capital that will serve future training
                        project.                                    needs of Corporation field personnel
                                                                    and help desk personnel.




                                                               Page C-8
Appendix D
                                     Memorandum

                                                                                       CORPORAf ION
                                                                                       FOR NAT10NAL
                                                                                              A m   -
                                                                                       COMMUNITY


      To:      Terry E. Bathen
               Deputy Inspector General for Audit

  From:        David N. Spevacek
               Chief Information Officer            'W

   Date:       March 18,2002

Subject:       Audit Report 02-22, Letter Report Regarding Assessment of Project Risks Related
               to the Corporation for National and Community Service's Development of a
               Grants Management System.


We are pleased that the KPMG assessment found that the Corporation is adequately managing
the development of the eGrants system and that the risks inherent in this effort, therefore, are
generally low. We do not disagree with the findings noted in the review and welcome the
opportunity to outline the steps currently being taken to mitigate those risks.

The Corporation has engaged a company, not involved in the development of eGrants, to design
a testing program, develop testing scripts that can be used now and in the future, and perform
independent testing. This contract specifically addresses the first two of the three described
risks:

       The Corporation should develop or adopt a specific quality assurance and testing
       methodology for the new E-SPAN system.. .

       The Corporation should document criteria for testing specific application security and
       internal controls to be used for both initial and on-going quality assurance validation
       testing of E-SPAN.

The Corporation's quality assurance and testing contractor is currently developing a project plan
and beginning to develop test scripts. We are working closely with that contractor to make sure
that the product of this effort addresses the risks identified by KPMG.
KPMG's third finding is as follows:

       The Corporation should develop a system life cycle management strategy and plan for
       operation and maintenance of the E-SPAN system throughout its expected operational
       lifespan while personnel with detailed knowledge of the system design are still available.

The eGrants system was developed within the context of the Corporation's existing Structured
Systems Development Life Cycle Methodology (Policy #378). All major systems development
is done using the full selection of ORACLE development tools. All system functionality will be
available and understandable to any software developer, even someone completely unfamiliar
with the system. The SPAN system has been operating under this life cycle strategy for several
years. The Corporation is revising its on going ORACLE support contract to include the
expected additional ORACLE expertise required by this new system. Throughout the
development of the system, the Corporation and the system developer have maintained a list of
items that were not in the initial design but that need to be considered in the next version of the
software. That list is the start of an on going maintenance plan. For the last nine months, the
Corporation has had internal conversations about staffing and related on going costs of the
system. The very difficult administrative funding situation of the Corporation has meant firm
decisions have not been possible.

KPMG is correct, the Corporation needs to take all of the above and put it into a single plan that
will be available to anyone, including outside auditors. We plan to develop such a plan in later
this calendar year.

We would like to thank the Office of the Inspector General and the staff of KPMG for their
professional attention and their thoughtful insights into development project.
